No. 19-635
IN THE

Supreme Court of the United States
___________

DONALD J. TRUMP,
Petitioner,

v.

CYRUS R. VANCE, JR., IN HIS OFFICIAL CAPACITY AS DISTRICT ATTORNEY OF THE COUNTY OF NEW YORK, ET AL.,
Respondents.

___________

On Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
___________

BRIEF OF FORMER DEPARTMENT OF
JUSTICE OFFICIALS AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS
___________

ELIZABETH B. WYDRA
BRIANNE J. GOROD*
ASHWIN P. PHATAK
CONSTITUTIONAL
ACCOUNTABILITY CENTER
1200 18th St. NW
Suite 501
Washington, D.C. 20036
(202) 296-6889
brianne@theusconstitution.org
Counsel for Amici Curiae
March 4, 2020

* Counsel of Record

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES .................................

ii

INTEREST OF AMICI CURIAE ..........................

1

INTRODUCTION
AND
SUMMARY
OF
ARGUMENT ......................................................

2

ARGUMENT .........................................................

6

I.

THE DEPARTMENT OF JUSTICE HAS
NEVER TAKEN THE POSITION THAT
PRESIDENTIAL IMMUNITY
PREVENTS A GRAND JURY
SUBPOENA OF A THIRD PARTY FOR
THE PRESIDENT’S FINANCIAL
RECORDS....................................................

6

1. June 25, 1973 Memorandum .......

7

2. September 24, 1973
Memorandum .................................

10

3. October 5, 1973 Memorandum ....

12

4. July 1974 Brief ..............................

13

5. January 2000 Memorandum .......

14

II. APPLYING THE BALANCING TEST
DESCRIBED IN THE DEPARTMENT’S
MEMORANDA AND BRIEFS FOR
CASES INVOLVING THE
AMENABILITY OF PRESIDENTS TO
JUDICIAL PROCESS TO THIS
CONTEXT WOULD NOT PRECLUDE
MAZARS FROM COMPLYING WITH
THIS THIRD-PARTY SUBPOENA ............

22

CONCLUSION .....................................................

27

APPENDIX ...........................................................

1A

(i)

ii
TABLE OF AUTHORITIES
Cases
Branzburg v. Hayes,
408 U.S. 665 (1972) ................................

Page(s)

9, 25

Clinton v. Jones,
520 U.S. 681 (1997) ....................... 16, 17, 19, 23
Mississippi v. Johnson,
71 U.S. (4 Wall.) 475 (1866) ...................

9, 12

Nixon v. Fitzgerald,
457 U.S. 731 (1982) ................................ 16, 17
United States v. Burr,
25 Fed. Cas. 30 (C.C.D. Va. 1807) .........

8

United States v. Burr,
25 Fed. Cas. 187 (C.C.D. Va. 1807) .......

8, 23

United States v. Nixon,
418 U.S. 683 (1974) ................................ 16, 26

Executive Branch Materials
Memorandum for the United States Concerning the Vice President’s Claim of
Constitutional Immunity, In re Proceedings of the Grand Jury Impaneled December 5, 1972: Application of Spiro T. Agnew, Vice President of the United States,
No. 73-965 (D. Md. Oct. 5, 1973) ....... 12, 13, 22

iii
TABLE OF AUTHORITIES
Page(s)
Memorandum from Carl B. Feldbaum, et
al., to Leon Jaworski (Feb. 12, 1974) .... 14, 24
Memorandum from Douglas W. Kmiec, Assistant Attorney General, Office of Legal
Counsel, to Arthur B. Culvahouse, Jr.,
Counsel to the President, Re: Constitutional Concerns Implicated by Demand
for Presidential Evidence in a Criminal
Prosecution (Oct. 17, 1988) ....................

20

Memorandum from Robert G. Dixon, Jr.,
Assistant Att’y Gen., Office of Legal
Counsel, Re: Amenability of the President, Vice President and other Civil Officers to Federal Criminal Prosecution while
in Office (Sept. 24, 1973) ........... 4, 10, 11, 12, 23
Memorandum from Robert G. Dixon, Jr.,
Assistant Att’y Gen., Office of Legal
Counsel, Re: Presidential Amenability to
Judicial Subpoenas (June 25, 1973) ..... passim
Reply Br. for the United States, United
States v. Nixon, 418 U.S. 683 (1974),
Nos. 73-1766 and 73-1834, 1973 WL
159436 .................................................. 4, 13, 14
A Sitting President’s Amenability to Indictment and Criminal Prosecution, 24 Op.
O.L.C. 222 (Oct. 16, 2000)..................... passim

1
INTEREST OF AMICI CURIAE1
Amici previously served in the Department of Justice (DOJ), including the Office of Legal Counsel
(OLC), a component of DOJ responsible for providing
legal advice to the President and executive branch
agencies. As former DOJ officials, amici are familiar
with the positions that DOJ has taken over time on
questions related to the amenability of the President
to criminal process while in office, and they have a
strong interest in ensuring that DOJ’s views are accurately presented to this Court. While DOJ has taken
the position that the President is immune from indictment and criminal prosecution while in office, it has
never taken the position that presidential immunity
prevents compliance with a pre-indictment third-party
grand jury subpoena simply because the grand jury’s
investigation relates to the President. To the contrary,
DOJ memoranda and briefs—including a number of
OLC opinions—have repeatedly emphasized the propriety of grand jury investigations related to the President even while he is in office, and they have also suggested that the President himself could have to comply
with judicial subpoenas while in office.
A full listing of amici is provided in the Appendix.

1 The parties have consented to the filing of this brief, and
their letters of consent have been filed with the Clerk. Under
Rule 37.6 of the Rules of this Court, amicus states that no counsel
for a party authored this brief in whole or in part, and no counsel
or party made a monetary contribution intended to fund the preparation or submission of this brief. No person other than amicus
or its counsel made a monetary contribution to its preparation or
submission.

2
INTRODUCTION AND
SUMMARY OF ARGUMENT
On August 29, 2019, the Manhattan District Attorney’s Office served a grand jury subpoena on the accounting firm Mazars USA LLP (“Mazars”) for a variety of financial records relating to the President and
entities owned by the President. The President sued
in federal court seeking to enjoin Mazars from complying with the subpoena. According to the President, he
enjoys an absolute immunity from all criminal process—an immunity so sweeping that it not only prevents him from being indicted or criminally prosecuted
while in office, but also prevents a third party like
Mazars from complying with a pre-indictment grand
jury subpoena simply because the matters under investigation pertain to the President.
In making this claim, the President relies heavily
on a number of Department of Justice (DOJ) memoranda and briefs concerning the President’s amenability to criminal process. According to the President, it
“has been the consistent position of the Justice Department for nearly 50 years” that the President cannot
“be subjected to criminal process” until “he leaves office.” Pet’r Br. 16; see id. at 20-21, 23, 29-30, 32-34, 37,
39, 42 (citing various Department memoranda).
That contention is demonstrably false. The DOJ
memoranda and briefs upon which the President relies
do not stand for nearly so broad a proposition. To the
contrary, they consistently explain that any claim of
presidential immunity must be subject to a balancing
test that weighs the importance of the criminal process
at issue against any effect on the President’s ability to
fulfill his constitutional functions. Applying that
standard, some of these documents have taken the position that a sitting President is immune from

3
indictment and criminal prosecution—a question not
presented by this case and on which amici take no position. See Pet. App. 25a (noting that the question “of
whether the President may be indicted . . . is not presented by this appeal”). The Department has never
even suggested, let alone concluded, that presidential
immunity bars a third party from complying with a
pre-indictment grand jury subpoena simply because
the investigation relates to the President. Even in this
case, the Solicitor General has not taken such a radical
position, arguing that “this Court need not resolve that
question to decide this case,” DOJ Br. 25, and instead
arguing that the fact that this case involves a state
grand jury subpoena requires the District Attorney to
satisfy some “heightened standard of need,” id. at 26.
Indeed, the Department’s position has consistently
been much more limited than the President acknowledges. In a 1973 memorandum considering the President’s amenability to judicial subpoenas more generally, the Office of Legal Counsel (OLC) endorsed “Chief
Justice Marshall’s view that the president is not exempt from judicial process, in particular the judicial
power to compel anyone to give testimony.” Memorandum from Robert G. Dixon, Jr., Assistant Att’y Gen.,
Office of Legal Counsel, Re: Presidential Amenability
to Judicial Subpoenas 5 (June 25, 1973) (“Judicial
Subpoenas Memo”). Though the memorandum suggested that the President’s special role in our constitutional system may merit accommodations—like being
permitted to testify by way of deposition or through
written interrogatories, for instance—the memorandum pointedly disclaimed any across-the-board immunity from judicial subpoena for the President. Rather, it explains, “the subpoenaing of a President involves a number of complex issues depending on the

4
circumstances in which and the purposes for which the
subpoena is issued.” Id. at 13.
Moreover, even as the Department has taken the
position that the President is immune from indictment
and criminal prosecution while in office given his
unique role in our constitutional scheme, it has never
suggested that that immunity allows the President to
prevent a third party from complying with a pre-indictment grand jury subpoena. To the contrary, DOJ
has repeatedly indicated that the President can be susceptible to at least some criminal process while in office. For instance, in a different 1973 memorandum
concluding that the President is immune from indictment and criminal prosecution, OLC rejected the notion that “the President is absolutely immune from the
jurisdiction of the courts in regard to any kind of
claim.” Memorandum from Robert G. Dixon, Jr., Assistant Att’y Gen., Office of Legal Counsel, Re: Amenability of the President, Vice President and other Civil
Officers to Federal Criminal Prosecution while in Office 24 (Sept. 24, 1973) (“Criminal Prosecution Memo”).
Rather, OLC explained, the “proper approach is to find
the proper balance between the normal functions of
the courts and the special responsibilities and functions of the Presidency.” Id.
Indeed, another Department of Justice office—the
Watergate Special Prosecutor’s office—concluded that
even if the President is immune from indictment while
in office, his immunity does not preclude naming the
President as an “unindicted co-conspirator under the
traditional grand jury power to investigate and charge
conspiracies that include co-conspirators who are not
legally indictable,” U.S. Reply Br., United States v.
Nixon, 418 U.S. 683 (1974), Nos. 73-1766 and 73-1834,
1973 WL 159436, at *16 (Jaworski Brief) (emphasis
omitted). In that way, the Department has explicitly

5
condoned grand jury investigations of the President,
even if any indictment resulting from such an investigation must be postponed until after the President has
left office.
Finally, a 2000 OLC memorandum reiterating the
Department’s position that the President is immune
from indictment and criminal prosecution equally reaffirmed that the Department’s position “did not depend upon a broad contention that the President is immune from all judicial process while in office.” A Sitting President’s Amenability to Indictment and Criminal Prosecution, 24 Op. O.L.C. 222, 239 n.15 (Oct. 16,
2000) (“Moss Memorandum”). In fact, even though
OLC concluded that the President was immune from
indictment while in office, it nonetheless indicated
that “[a] grand jury could continue to gather evidence
throughout the period of immunity.” Id. at 257 n.36.
That observation was critical to the Department’s reasoning. As the memorandum explained, postponing
indictment until after a President has left office will
not lead to “a prejudicial loss of evidence in the criminal context” because of the continued work of the grand
jury while the President is in office. Id.
Thus, none of the various memoranda and briefs
produced by DOJ concerning the President’s immunity
from criminal process suggests that presidential immunity “bar[s] the enforcement of a state grand jury
subpoena directing a third party to produce non-privileged material, even when the subject matter under
investigation pertains to the President.” Pet. App.
15a. Rather, if this Court were to follow the DOJ approach, it would ask whether requiring Mazars to comply with the subpoena in this case would prevent the
President from fulfilling his constitutional functions.
The answer to that question is plainly no. The
President is not required to do anything in response to

6
this subpoena because it is directed at Mazars, not
him. Moreover, Mazars’ compliance with the subpoena
will not require the same energy and attention as responding to criminal charges or preparing for trial—if
it requires any attention of the President at all. Further, the stigma associated with complying with a subpoena is far less than the stigma of criminal indictment, and less even than being named as an unindicted coconspirator—something the Department has
made clear is permissible while the President is in office.
In short, while amici may have a diversity of views
about how exactly questions about presidential immunity should be analyzed and in what contexts immunity will apply, they all agree on this: applying the
same standard the Department has consistently applied in analyzing questions of this type, presidential
immunity should not preclude Mazars from complying
with the subpoena at issue in this case.
ARGUMENT
I. THE DEPARTMENT OF JUSTICE HAS
NEVER TAKEN THE POSITION THAT PRESIDENTIAL IMMUNITY PREVENTS A GRAND
JURY SUBPOENA OF A THIRD PARTY FOR
THE PRESIDENT’S FINANCIAL RECORDS.
Between 1973 and 2000, the Department of Justice was repeatedly asked to address questions related
to the President’s immunity from criminal process.
While several of those documents concluded that the
President enjoys immunity from indictment and criminal prosecution while in office, none of them took the
much more radical position that the President asserts
here: that presidential immunity bars a third party
from complying with a pre-indictment grand jury subpoena as part of an investigation related to the

7
President. To the contrary, a number of those documents specifically explained that the President is amenable to judicial subpoenas more generally, and that
the President can be subject to a grand jury investigation while in office. Thus, the President’s unprecedented assertion of an absolute immunity from all
criminal process finds no support in the DOJ memoranda and briefs upon which the President seeks to
rely.
1. June 25, 1973 Memorandum
In 1973, Robert G. Dixon, Jr., Assistant Attorney
General for the Office of Legal Counsel, wrote a memorandum addressing the legality of judicial subpoenas
directed to the President. The memorandum rejected,
as lacking precedent, “the proposition that the constitutional doctrine of the separation of powers precludes
vel non the issuance of judicial subpoenas to the President.” Judicial Subpoenas Memo at 7. Rather, the
memorandum endorsed “Chief Justice Marshall’s view
that the President is not exempt from judicial process,
in particular the judicial power to compel anyone to
give testimony.” Id. at 5.
To be sure, as the memorandum discussed, Marshall concluded that there were circumstances in
which a President could refuse to comply with a subpoena. For example, “[i]f the President should feel
that the document contains matters that should not be
disclosed, i.e., if he should claim Executive privilege,
that . . . would be a matter to be determined on the return of the subpoena, but not prior to its issuance.” Id.
at 2. Likewise, “the official duties of the President
might make it difficult, if not impossible, for him to
comply with [a] judicial subpoena,” id., but that too
would not prevent a subpoena from issuing. As Chief
Justice Marshall explained: “The guard furnished to
this high officer to protect him from being harassed by

8
vexatious and unnecessary subpoenas, is to be looked
for in the conduct of a court after those subpoenas have
been issued; not in any circumstance which is to precede their being issued.” Id. (quoting United States v.
Burr, 25 Fed. Cas. 30, 34 (C.C.D. Va. 1807)).
The memorandum went on to describe the misdemeanor trial of Aaron Burr in 1807, in which President
Jefferson was subpoenaed. Though Jefferson declined
to appear in person, “he instructed the prosecutor to
communicate to the court those documents which in
the prosecutor’s judgment could be communicated
without injury.” Id. at 3. Addressing that subpoena,
Chief Justice Marshall explained that it “is not controverted” that “the president of the United States may
be subpoenaed, and examined as a witness, and required to produce any paper in his possession.” Id. at
3 (quoting United States v. Burr, 25 Fed. Cas. 187, 191
(C.C.D. Va. 1807)). To be sure, Marshall cautioned
that although the president is “subject to the general
rules which apply to others,” there needed to be a “very
strong” justification for subpoenaing him, id. at 3
(quoting Burr, 25 Fed. Cas. at 191-92), and he “may
have sufficient motives for declining to produce a particular paper, and those motives may be such as to restrain the court from enforcing its production,” id. But
nowhere did Marshall suggest that the President enjoyed blanket immunity from judicial subpoenas for
documents. And, as the memorandum described, President Jefferson went on to “authorize[] the partial release of the document at issue, deleting certain passages, and attach[ing] a certificate to the effect that his
duties and public interest forbade him to make that
passage public.” Id. at 4.
Building on this early example, Dixon’s memorandum concluded that “the President is not exempt from
judicial process, in particular the judicial power to

9
compel anyone to give testimony.” Id. at 5; see id. at 6
(“Chief Justice Marshall ‘opined that in proper circumstances a subpoena could be issued to the President of
the United States.’” (quoting Branzburg v. Hayes, 408
U.S. 665, 688 n.26 (1972))). To be sure, Dixon noted
that some had argued that the President may not be
subject to a “mandatory or injunctive” suit “in connection with matters relating to his faithful execution of
the laws.” Id. at 7 (citing Mississippi v. Johnson, 71
U.S. (4 Wall.) 475 (1866)). But even accepting that
proposition as true (which, notably, Dixon’s memorandum did not), the memorandum still concluded that
“[i]mmunity from suit in a court . . . does not necessarily carry with it an exemption from the duty to testify in a judicial proceeding.” Id. at 6-7.
Dixon included two caveats in his memorandum to
“protect[] high government officials from harassing
subpoenas.” Id. at 9. First, “the existence of judicial
power to subpoena the President does not mean that a
court is required to proceed against him without regard to his overriding duties to the public at large.” Id.
at 7. Thus, Dixon explained that high government officials including the President may have immunity
from in-person testimony and might be permitted to
testify “by way of deposition” or “by written interrogatories,” in order to avoid being hamstrung in fulfilling
their official duties. Id. at 8. Second, subpoenas of
high government officials should be “subject . . . to
greater scrutiny than those addressed to ordinary citizens,” and officials should not be required to testify if
they can show they have “no relevant knowledge, or
that the information [they have] is privileged.” Id. at
9. “Instead, a district court should require the subpoenaing party to set forth the evidence he expects to obtain, and should not insist upon a witness’ attendance

10
if it appears that he cannot give any relevant testimony.” Id.
The core conclusion of this memorandum is clear:
the President can be subject to judicial subpoena even
while in office. Although the President has some immunity beyond that of an ordinary citizen to prevent
the disclosure of material subject to executive privilege, and may otherwise argue that compliance with
certain subpoenas would inhibit his ability to perform
his official duties, he enjoys no absolute immunity
from judicial subpoenas. As the memorandum explained, “[t]he real problem . . . lies not in the existence
vel non of the basic subpoena power, as in fashioning
rules which properly take into consideration the President’s special status and the particular circumstances
of the case.” Id. at 13.
2. September 24, 1973 Memorandum
A few months later, Assistant Attorney General
Dixon wrote a second memorandum considering the
amenability of the President, Vice President, and
other civil officers to federal criminal prosecution
while in office. Dixon concluded that most civil officers, including the Vice President, were amenable to
criminal prosecution while in office. Criminal Prosecution Memo at 17, 40. With regard to the President,
however, Dixon explained:
[U]nder our constitutional plan it cannot be
said either that the courts have the same jurisdiction over the President as if he were an ordinary citizen or that the President is absolutely immune from the jurisdiction of the
courts in regard to any kind of claim. The
proper approach is to find the proper balance
between the normal functions of the courts and

11
the special responsibilities and functions of the
Presidency.
Id. at 24 (emphasis added).
In Dixon’s view, the President is immune from indictment and criminal prosecution during his term in
office owing to the unique role of the President and the
impact an indictment would have on his ability to
carry out his duties as the nation’s chief executive. But
the focus of Dixon’s memorandum was indictment and
criminal prosecution, not other types of criminal process. See, e.g., id. at 30 (“The spectacle of an indicted
President still trying to serve as Chief Executive boggles the imagination.”). Nowhere in the memorandum
was there mention of whether a grand jury could carry
out a pre-indictment investigation that touched upon
the President’s conduct outside of his official duties, let
alone whether a grand jury could subpoena documents
from a third party related to that investigation.
Dixon was also clear that when attempting to find
the “proper balance between the normal functions of
the courts and the special responsibilities and functions of the Presidency,” id. at 24, the question of
whether a sitting President can be indicted was itself
a close question. Considering whether “criminal proceedings [would] unduly interfere in a direct or formal
sense with the conduct of the Presidency,” id. at 27,
Dixon concluded that “the duties of the Presidency”
have “become so onerous that a President may not be
able fully to discharge the powers and duties of his office if he had to defend a criminal prosecution,” id. at
28. Thus, “in view of the unique aspects of the Office
of the President, criminal proceedings against a President should not go beyond a point where they could
result in so serious a physical interference with the
President’s performance of his official duties that it
would amount to an incapacitation.” Id. at 29. The

12
memorandum explained that this “physical interference consideration” would be less “serious regarding
minor offenses leading to a short trial and a fine,” but
“in more serious matters, . . . which could require the
protracted personal involvement of the President in
trial proceedings, the Presidency would be derailed if
the President were tried prior to removal.” Id.
The memorandum also considered whether “initiation or prosecution of criminal proceedings, as a practical matter, [would] unduly impede the power to govern, and also be inappropriate, prior to impeachment,
because of the symbolic significance of the Presidency.”
Id. at 30. Noting that the suggestion that the President “is above the process of any court or the jurisdiction of any court,” id. (quoting Johnson, 71 U.S. (4
Wall.) 475 (oral argument of Attorney General Stanbery)), “may be an overstatement,” Dixon nonetheless
reasoned that “[t]o wound [the President] by a criminal
proceeding is to hamstring the operation of the whole
governmental apparatus, both in foreign and domestic
affairs,” id. This was especially so because a criminal
trial and appeal could “drag out for months.” Id. at 31.
3. October 5, 1973 Memorandum
Next, on October 5, 1973, Solicitor General Robert
Bork filed a memorandum in the United States District Court for the District of Maryland regarding the
indictment of Vice President Spiro Agnew, arguing
that the President “would not be subject to the ordinary criminal process” owing to “the crucial nature of
his executive powers.” Memorandum for the United
States Concerning the Vice President’s Claim of Constitutional Immunity at 6, In re Proceedings of the
Grand Jury Impaneled December 5, 1972: Application
of Spiro T. Agnew, Vice President of the United States,
No. 73-965 (D. Md. Oct. 5, 1973) (Bork Memorandum).
According to Bork, this result followed from the unique

13
“scope of . . . powers” under Article II of the Constitution “that only [the President] can perform unless and
until it is determined that he is to be shorn of those
duties by the Senate.” Id. at 17.
Importantly, however, Bork’s memorandum made
clear that by “immunity from the criminal process,”
Bork meant that “the President is immune from indictment and trial prior to removal from office.” Id. at 20
(emphasis added). Bork’s memorandum did not address the President’s (or any other officer’s) immunity
from grand jury investigations and subpoenas prior to
indictment, let alone a grand jury subpoena directed
to a third party.
4. July 1974 Brief
A year later, the Watergate Special Prosecutor’s
office again addressed the amenability of the President
to criminal process. That office similarly concluded
that the scope of any immunity must be determined
based on a functional analysis of whether the criminal
process at issue would inhibit the President from performing his constitutionally assigned functions. In response to President Nixon’s challenges to the actions
of the Watergate grand jury, the Special Prosecutor
submitted a brief to this Court explaining that “[i]t is
an open and substantial question whether an incumbent President is subject to indictment.” Jaworski Br.
24. The brief expressed skepticism regarding the President’s argument in that case that “the lodging of an
indictment against an incumbent President would
‘cripple an entire branch of the national government
and hence the whole system,’” id. at 32 (internal citation omitted); see id. (“our constitutional system has
shown itself to be remarkably resilient” and “has endured through periods of great crises, including several when our Presidents have been personally disabled for long periods of time”).

14
But even if the President were immune from indictment, the Special Prosecutor’s brief concluded that
the President “nevertheless may be named as an unindicted co-conspirator under the traditional grand jury
power to investigate and charge conspiracies that include co-conspirators who are not legally indictable.”
Id. at 16. While the brief conceded that “indictment
would require the President to spend time preparing a
defense and, thus, would interfere to some extent with
his attention to his public duties, . . . naming the President as an unindicted co-conspirator cannot be regarded as equally burdensome.” Id. at 20. Though a
“grave and solemn step” that “may cause public as well
as private anguish,” that action is not “constitutionally
proscribed.” Id. at 23.2
This brief further underscores the Department of
Justice’s long-standing position that presidential immunity does not impose an absolute bar to the President being susceptible to criminal process. Indeed, by
accepting the propriety of naming the President as an
unindicted coconspirator, the brief necessarily contemplated that the President would be subject to grand
jury investigations while in office.
5. January 2000 Memorandum
In 2000, Assistant Attorney General for the Office
of Legal Counsel Randolph D. Moss issued an opinion
2 An internal memorandum authored by members of the Special Prosecutor’s office earlier that same year reached a similar
result, concluding that it would be acceptable for a grand jury to
issue a “presentment setting out in detail the most important evidence and the Grand Jury’s conclusions that the President has
violated certain criminal statutes and would have been indicted
were he not President.” Memorandum from Carl B. Feldbaum, et
al., to Leon Jaworski 17 (Feb. 12, 1974) (“Watergate Memorandum”).

15
that discussed the prior DOJ opinions and briefs described above as well as intervening Supreme Court
decisions. The Moss Memorandum “concluded that
the indictment or criminal prosecution of a sitting
President would impermissibly undermine the capacity of the executive branch to perform its constitutionally assigned functions.” Moss Memorandum at 222.
In reaching that conclusion, the Moss Memorandum first reviewed the earlier DOJ memoranda and
briefs described above. In stark contrast to the President’s brief before this Court, the Moss Memorandum
accurately characterized those earlier DOJ statements
as not having endorsed any sweeping immunity of the
President from all forms of criminal process.
The Moss Memorandum began by reviewing
Dixon’s Criminal Prosecution Memo and Bork’s brief,
concluding that both “recognized that the President is
not above the law . . . [but] that the President occupies
a unique position within our constitutional order.” Id.
at 236. The Criminal Prosecution Memo, according to
Moss, explained that “the accusation or adjudication of
the criminal culpability of the nation’s chief executive
by either a grand jury returning an indictment or a
petit jury returning a verdict would have a dramatically destabilizing effect upon the ability of a coordinate branch of government to function.” Id. (emphasis
added). The Moss Memorandum noted that “the Department’s 1973 analysis did not depend upon a broad
contention that the President is immune from all judicial process while in office” and indeed that the 1973
analysis “specifically cast doubt upon such a contention.” Id. at 239 n.15.
The Moss Memorandum went on to discuss three
Supreme Court cases decided after 1973 that might
have affected the Department’s conclusions regarding
the President’s amenability to criminal process.

16
Highlighting its focus on indictment and prosecution,
the Moss Memorandum reasoned that even though
none of these cases “directly addresse[d] the questions
whether a sitting President may be indicted, prosecuted, or imprisoned,” the memorandum suggested
they were “relevant” to those questions. Id. at 237
(emphasis added). The memorandum concluded that
these precedents were consistent with the Department’s view that “(1) the proper doctrinal analysis requires a balancing between the responsibilities of the
President as the sole head of the executive branch
against the important governmental purposes supporting the indictment and criminal prosecution of a
sitting President; and (2) the proper balance supports
recognition of a temporary immunity from such criminal process while the President remains in office.” Id.
at 238 (emphasis added).
Consistent with its characterization of DOJ’s embrace of a balancing approach, the Moss Memorandum
described this Court’s decision in United States v.
Nixon as both underscoring “the importance of . . . confidentiality of Presidential communications in performance of the President’s responsibilities,” id. at 239
(quoting Nixon, 418 U.S. at 711), and still recognizing
that that interest must be weighed against the judicial
“need to develop all relevant facts in the adversary system,” id. at 240 (quoting Nixon, 418 U.S. at 709). Ultimately, the Nixon Court “concluded that the President’s generalized interest in confidentiality did not
suffice to justify a privilege from all criminal subpoenas.” Id.
The Moss Memorandum also addressed Nixon v.
Fitzgerald, 457 U.S. 731 (1982), and Clinton v. Jones,
520 U.S. 681 (1997), a pair of cases concerning the
President’s immunity from civil suits concerning his
official and unofficial acts, respectively. Regarding

17
suits against the President for official acts, the Moss
Memorandum explained, “[t]he [Fitzgerald] Court endorsed a rule of absolute immunity, concluding that
such immunity is ‘a functionally mandated incident of
the President’s unique office, rooted in the constitutional tradition of the separation of powers and supported by our history.’” Moss Memorandum at 240
(quoting Fitzgerald, 457 U.S. at 749). By contrast, in
Clinton v. Jones, the Court “declined to extend the immunity recognized in Fitzgerald to civil suits challenging the legality of a President’s unofficial conduct,” and
the Court permitted civil proceedings to go forward
against President Clinton. Id. at 242. Though this
Court acknowledged that “the doctrine of separation of
powers places limits on the authority of the Federal
Judiciary to interfere with the Executive Branch,” id.
(quoting Jones, 520 U.S. at 697-98), it did not believe
that doctrine should preclude the civil action at issue
because “if properly managed by the District Court,”
the case was “highly unlikely to occupy any substantial amount of [the President’s] time,” id. at 243 (quoting Jones, 520 U.S. at 702). Indeed, “the testimony of
the President, both for discovery and for use at trial,
may be taken at the White House at a time that will
accommodate his busy schedule, and that, if a trial is
held, there would be no necessity for the President to
attend in person.” Id. (quoting Jones, 520 U.S. at 69192). And, the Moss Memorandum noted, the Court
reasoned that “courts frequently adjudicate civil suits
challenging the legality of official presidential action,”
and “courts occasionally have ordered Presidents to
provide testimony and documents or other materials.”
Id.
Synthesizing these precedents, the Moss Memorandum drew the lesson that the same “balancing
analysis relied on in the 1973 OLC memorandum has

18
since been adopted as the appropriate mode of analysis
. . . for resolving separation of powers issues found in
the Court’s recent cases.” Id. at 244. Applying that
balancing analysis, the Moss Memorandum concluded
specifically that “indicting and prosecuting a sitting
President would ‘prevent the executive from accomplishing its constitutional functions’ and that this impact cannot ‘be justified by an overriding need’ to promote countervailing and legitimate government objectives.” Id. at 245 (emphasis added).
The Moss Memorandum explained that the President should be immune from indictment and prosecution for two reasons. First, “the severity of the burden
imposed upon the President by the stigma arising both
from the initiation of a criminal prosecution and also
from the need to respond to such charges through the
judicial process would seriously interfere with his ability to carry out his constitutionally assigned functions.” Id. at 249. Distinguishing the civil proceeding
at issue in Jones, the memorandum explained that
“[t]he peculiar public opprobrium and stigma that attach to criminal proceedings” and their “likely effect on
presidential respect and stature both here and abroad,
cannot fairly be analogized to that caused by initiation
of a private civil action.” Id. at 250.
Second, “the unique mental and physical burdens
that would be placed on a President facing criminal
charges and attempting to fend off conviction and punishment” are “different in kind and far greater in degree than those of responding to civil litigation.” Id. at
251-52 (emphasis added). As the memorandum explained, criminal defendants typically attend their
own trial, have a right to confront witnesses, have a
right to counsel (with whom they must communicate
and plan a defense), and overall require a defendant’s
“personal attention and attendance at specific times

19
and places, because the burdens of criminal defense
are much less amenable to mitigation by skillful trial
management” than civil litigation. Id. at 251-53. In
short, according to the Moss Memorandum,
unlike private civil actions for damages—or
the two other judicial processes with which
such actions were compared in Clinton v. Jones
(subpoenas for documents or testimony and judicial review and occasional invalidation of the
President’s official acts, see 520 U.S. at 70305)—criminal litigation uniquely requires the
President’s personal time and energy, and will
inevitably entail a considerable if not overwhelming degree of mental preoccupation.
Id. at 254. The memorandum then balanced “the burdens imposed by indictment and criminal prosecution
on the President’s ability to perform his constitutionally assigned functions” against the “legitimate governmental objective[]” of “the expeditious initiation of
criminal proceedings.” Id. at 255 (emphasis added).
Notably, the Moss Memorandum expressly contemplated the permissibility of a grand jury collecting
evidence while a President was in office in order to enable prosecution of the President once he was no longer
in office. Regarding any statutes of limitations that
might hinder such a course, the memorandum suggested that courts could toll the running of such statutes while the President remained in office, or that
“Congress could overcome any such obstacle by imposing its own tolling rule.” Id. at 256. Regarding the
possibility that a delay in prosecution might make any
ultimate prosecution less successful, the memorandum concluded that “when balanced against the overwhelming cost and substantial interference with the
functioning of an entire branch of government, these
potential costs of delay, while significant, are not

20
controlling.” Id. at 257. Most importantly, the memorandum stated forthrightly that “[a] grand jury could
continue to gather evidence throughout the period of
immunity, even passing this task down to subsequently empaneled grand juries if necessary.” Id. at
257 n.36 (emphasis added). Indeed, the fact that a
grand jury could continue to investigate the President
while he served in office was a critical reason why
there was “less reason to fear a prejudicial loss of evidence in the criminal context” even if indictment were
delayed until after the President left office. Id.
In short, the Moss Memorandum, like the DOJ
documents before it, does not cast doubt on the President’s amenability to a grand jury subpoena, let alone
the propriety of a subpoena pertaining to the President
that is issued to a third party. The memorandum was
squarely focused on “indictment and criminal prosecution,” not on grand jury investigations. See, e.g., id. at
222 (“A Sitting President’s Amenability to Indictment
and Criminal Prosecution”); see also id. at 222-60 (referring to “indictment and criminal prosecution” 15
times). Indeed, the Moss Memorandum on multiple
occasions cites sources explaining that the President is
susceptible to some judicial subpoenas. See, e.g., id. at
239 n.15 (citing D.C. Circuit case which rejected the
assertion that the President is absolutely immune
from judicial subpoenas); id. at 240 (citing United
States v. Nixon for the proposition that “the President’s generalized interest in confidentiality did not
suffice to justify a privilege from all criminal subpoenas”); id. at 253 n.29 (citing an earlier non-public OLC
memorandum for the conclusion that “a judicial subpoena in a criminal case may be issued to the President, and any challenge to the subpoena must be based
on the nature of the information sought rather than
any immunity from process belonging to the

21
President” (quoting Memorandum from Douglas W.
Kmiec, Assistant Attorney General, Office of Legal
Counsel, to Arthur B. Culvahouse, Jr., Counsel to the
President, Re: Constitutional Concerns Implicated by
Demand for Presidential Evidence in a Criminal Prosecution 2 (Oct. 17, 1988)); id. at 254 (noting that Clinton v. Jones contemplated subpoenas for documents or
testimony from the President). More importantly, the
memorandum specifically contemplates that “[a]
grand jury could continue to gather evidence throughout the period of immunity” from indictment. Id. at
257 n.36. Thus, far from casting doubt on the permissibility of grand jury subpoenas related to Presidential
conduct, the Moss Memorandum repeatedly suggests
that such subpoenas are not precluded by any presidential immunity.3

3 The Solicitor General cites the Moss Memorandum for a
broader proposition: that “[c]riminal investigations would consume the President’s time and distract him from his duties to the
American people, to the detriment of the Nation he serves.” DOJ
Br. 17. But the Solicitor General fails to acknowledge that the
Moss Memorandum explicitly contemplated grand jury investigations of a sitting President. See Moss Memorandum at 257 n.36.
Moreover, the passage of the Moss Memorandum that the Solicitor General quotes says only that “an individual’s mental and
physical involvement and assistance in the preparation of his defense . . . would be intense” in the context of “criminal prosecutions,” id. at 251 (emphasis added), and does not speak to grand
jury subpoenas (especially grand jury subpoenas to third parties).

22
II. APPLYING THE BALANCING TEST DESCRIBED IN THE DEPARTMENT’S MEMORANDA AND BRIEFS FOR CASES INVOLVING THE AMENABILITY OF PRESIDENTS
TO JUDICIAL PROCESS TO THIS CONTEXT
WOULD NOT PRECLUDE MAZARS FROM
COMPLYING WITH THIS THIRD-PARTY
SUBPOENA.
As described in the previous section, when faced
with questions regarding whether presidential immunity can prevent judicial process in cases involving
the President, the Department has applied a balancing
test that takes into consideration both the importance
of the judicial process and the effect any particular action might have on the President’s ability to fulfill his
constitutional function. See DOJ Br. 10 (“the President enjoys a constitutional immunity from actions of
federal courts that would threaten to undermine his
independence or interfere with his functions”). That
test has led the Department to conclude that a President is immune from indictment or criminal prosecution while in office. Even if a similar test were to apply
to the pre-indictment third-party grand jury subpoena
at issue here, it is clear that presidential immunity
should not prevent Mazars from complying.
First, the Department’s position regarding the
President’s immunity from indictment and prosecution was premised in part on “the unique mental and
physical burdens that would be placed on a President
facing criminal charges and attempting to fend off conviction and punishment.” Moss Memorandum at 253.
As the Bork Memorandum described, indictment and
prosecution of a sitting President are incompatible
with the President’s constitutional role because they
would “temporar[ily] disab[le]” the President from fulfilling his constitutional duties. Bork Memorandum at

23
18; see Criminal Prosecution Memo at 29 (“criminal
proceedings against a President should not go beyond
a point where they could result in so serious a physical
interference with the President’s performance of his official duties that it would amount to an incapacitation”); Moss Memorandum at 254 (“criminal litigation
uniquely requires the President’s personal time and
energy, and will inevitably entail a considerable if not
overwhelming degree of mental preoccupation”). Even
“indictment alone,” according to the Moss Memorandum, “will spur the President to devote some energy
and attention to mounting his eventual legal defense.”
Id. at 259.
None of these concerns is implicated by requiring
Mazars to comply with the grand jury subpoena at issue here. Generally speaking, complying with a subpoena will not consume the President’s personal time
and energy in the way that responding to criminal
charges and mounting a legal defense would. That is
likely why the Department has repeatedly emphasized
that the President is not immune from all judicial subpoenas, and can even be required to personally testify
with the proper accommodations. See, e.g., Judicial
Subpoenas Memo at 3 (“That the president of the
United States may be subpoenaed, and examined as a
witness, and required to produce any paper in his possession, is not controverted.” (quoting Burr, 25 Fed.
Cas. at 191)); see also Jones, 520 U.S. at 708 (permitting a civil trial to go forward against the President
concerning his unofficial conduct despite the fact that
a trial “may consume some of the President’s time and
attention”). Moreover, in this case, there should not be
any effect on the President’s personal energy and attention, given that it is a third-party accounting firm,
not the President, who must comply with the subpoena
and the President has not suggested that the

24
requested documents are covered by any privilege. As
the court below reasoned, “no court has ordered the
President to do or produce anything” and so “any burden or distraction the third-party subpoena causes”
would hardly “rise to the level of interfering with [the
President’s] duty to ‘faithfully execute[]’ the laws.”
Pet. App. 21a (quoting U.S. Const. art. II, § 3).
Second, the Department’s position on the President’s immunity from indictment and prosecution was
also influenced by the perceived “stigma arising . . .
from the initiation of a criminal prosecution.” Moss
Memorandum at 249. But significantly the Department has concluded that the President is immune from
indictment and prosecution because of “[t]he peculiar
public opprobrium and stigma that attach” to indictment and prosecution. Id. at 250 (emphasis added).
The Department has never suggested that the President is immune from criminal process simply because
it might produce some amount of stigma. Indeed, the
Department has taken the position that the President
can be named as an unindicted coconspirator, see Jaworski Br. 16, notwithstanding the stigma and opprobrium that surely follow from that circumstance.
Here, there is no reason to think that the stigma
that might follow from Mazars complying with this
subpoena is sufficiently great that it would warrant
barring Mazars from compliance. The President suggests that this subpoena carries a stigma because, in
his view, it reveals that he is the “target[]” of the grand
jury investigation, and the investigation may result in
“indictment and prosecution during his term in office.”
Pet’r Br. i. But as the court below explained, “[t]he
President has not been charged with a crime,” and
“[t]he grand jury investigation may not result in an indictment against any person, and even if it does, it is
unclear whether the President will be indicted.” Pet.

25
App. 22a. Indeed, the District Attorney has represented that the grand jury is also investigating other
persons and entities besides the President. Id.
Moreover, even if the President were the sole subject of the grand jury investigation, the Department
has specifically contemplated that a President can be
the target of a grand jury investigation while in office.
As described above, the Moss Memorandum explained
that “[a] grand jury could continue to gather evidence
throughout the period of immunity, even passing this
task down to subsequently empaneled grand juries if
necessary.” Moss Memorandum at 257 n.36 (emphasis
added). Meanwhile, this Court has explained that “the
grand jury’s authority to subpoena witnesses is not
only historic, but essential to its task.” Branzburg, 408
U.S. at 688 (internal citations omitted). As the court
below reasoned, “it strains credulity to suggest that a
grand jury is permitted only to request the voluntary
cooperation of witnesses but not to compel their attendance or the production of documents.” Pet. App.
26a.
To be sure, the Solicitor General cautions that “[a]
subpoena for personal records can be deployed to harass a President in response to his official policies, or
have the effect of subjecting a President to unwarranted burdens, diverting his time, energy, and attention from his public duties.” DOJ Br. 23 (emphasis
added). But the Solicitor General does not seriously
contend—nor could he—that this subpoena is intended
to harass the President, or that the President’s time
and energy will be diverted in a non-trivial way from
his public duties while a third party complies with it.
Instead, the Solicitor General argues that state
criminal subpoenas should be subject to a heightened
standard of justification that requires the District Attorney to show a “demonstrated, specific need,” a

26
theory that is not based on any of the Department’s
prior memoranda or briefs, let alone this Court’s precedents. Indeed, the “demonstrated, specific need” language for which the Solicitor General advocates comes
from this Court’s decision in United States v. Nixon,
418 U.S. at 713, but as the Solicitor General acknowledges, that case applied this heightened standard in
the context of a subpoena for the “President’s privileged official records [that] would compromise the confidentiality of the President’s communications with his
advisors,” DOJ Br. 28 (emphasis added), not in the context of a subpoena for the President’s private records,
let alone a subpoena of those records from a thirdparty accounting firm.
Even if such a standard did apply, the reasons that
the Solicitor General gives for why the District Attorney has not met the standard here—like failing to
show why “the immediate production of the President’s records is critical to the grand jury’s investigation” and “why he needs the President’s personal records now, rather than at the end of the President’s
term,” id. at 32—ignore the Department’s prior position that the President is susceptible to judicial subpoenas and that a grand jury can continue to gather
evidence during a President’s term, Moss Memorandum at 257 n.36.
In short, the same considerations that led the Department to conclude that the President is immune
from indictment and criminal prosecution while in office make clear why presidential immunity poses no
bar to Mazars complying with the pre-indictment
grand jury subpoena at issue here.

27
CONCLUSION
For the foregoing reasons, the judgment of the
court below should be affirmed.
Respectfully submitted,
ELIZABETH B. WYDRA
BRIANNE J. GOROD*
ASHWIN P. PHATAK
CONSTITUTIONAL
ACCOUNTABILITY CENTER
1200 18th St. NW
Suite 501
Washington, D.C. 20036
(202) 296-6889
brianne@theusconstitution.org
Counsel for Amici Curiae
March 4, 2020

* Counsel of Record

1A
APPENDIX:
LIST OF AMICI
John B. Bellinger III
Partner, Arnold & Porter
Counsel for National Security Matters, Criminal
Division, 1997-2001
Rebecca L. Brown
The Rader Family Trustee Chair in Law, USC
Gould School of Law
Attorney-Adviser, Office of Legal Counsel, 1983-1985
Evan H. Caminker
Dean Emeritus and Branch Rickey Collegiate
Professor of Law, University of Michigan Law
School
Deputy Assistant Attorney General, Office of Legal
Counsel, 2000-2001
Dawn Johnsen
Walter W. Foskett Professor of Law, Indiana University Maurer School of Law
Acting Assistant Attorney General, Office of Legal
Counsel, 1997-1998; Deputy Assistant Attorney
General, Office of Legal Counsel, 1993-1996
Peter D. Keisler
Partner, Sidley Austin LLP
Acting Attorney General, 2007; Assistant Attorney
General, Civil Division, 2003-2007

2A
LIST OF AMICI - cont’d
Neil J. Kinkopf
Professor of Law, Georgia State University College
of Law
Special Assistant, Office of Legal Counsel, 19931997
Douglas W. Kmiec
Professor Emeritus, Pepperdine University
Assistant Attorney General, Office of Legal Counsel,
1988-1989
Harold Hongju Koh
Sterling Professor of International Law, Yale Law
School
Attorney-Adviser, Office of Legal Counsel, 1983-1985
Peter M. Shane
Jacob E. Davis and Jacob E. Davis II Chair in Law,
The Ohio State University, Moritz College of Law
Attorney-Adviser, Office of Legal Counsel, 1979-1981
Judith Welch Wegner
Burton Craige Professor of Law, Emerita, UNC
School of Law
Attorney-Adviser, Office of Legal Counsel, 1977-1979
† Current institutional affiliations are listed for
identification purposes only.

